TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Baltimore Collection Field Function
                 Office Properly Controlled Form 809 Receipt
                 Books and Timely Transmitted Remittances
                                for Processing



                                        February 20, 2008

                              Reference Number: 2008-30-072




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                February 20, 2008


 MEMORANDUM FOR DIRECTOR, COLLECTION, SMALL BUSINESS/
                SELF-EMPLOYED DIVISION


 FROM:                         Margaret E. Begg
                               Acting Assistant Inspector General for Audit (Small Business and
                               Corporate Programs)

 SUBJECT:                      Final Audit Report – The Baltimore Collection Field Function Office
                               Properly Controlled Form 809 Receipt Books and Timely Transmitted
                               Remittances for Processing (Audit # 200830IE026)

 This report presents the results of our review of internal controls over the Receipt for Payment of
 Taxes (Form 809) within the Baltimore Collection Field function (CFf)1 office. The overall
 objective of this audit was to determine whether internal controls for collecting and depositing
 remittances within the Baltimore CFf office were effective. We initiated this review because the
 Form 809 is classified as a security item, and its use is strictly controlled and limited to only
 certain employees.

 Impact on the Taxpayer
 CFf employees are required to issue a Form 809 receipt when cash is received from a taxpayer.
 All remittances secured by CFf employees must be transmitted to the appropriate designated
 Submission Processing site2 on the day collected or as soon as possible on the next business day.
 The Baltimore CFf office properly issued and accounted for Form 809 receipt books and timely
 transmitted remittances to the Submission Processing site for processing. Effective controls over


 1
   The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
 delinquent accounts or secure unfiled returns. Area Offices are a geographic organizational level used by the
 Internal Revenue Service business units and offices to help their specific types of taxpayers understand and comply
 with tax laws and issues.
 2
   The Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
 Computing Centers for analysis and posting to taxpayer accounts.
                           The Baltimore Collection Field Function Office Properly
                         Controlled Form 809 Receipt Books and Timely Transmitted
                                        Remittances for Processing




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Form 809 Receipt Books Were Properly Controlled by the Collection
          Field Function Groups ..................................................................................Page 3
          Remittances Were Timely Transmitted to the Submission Processing
          Site for Processing ........................................................................................Page 5

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 7
          Appendix II – Major Contributors to This Report ........................................Page 9
          Appendix III – Report Distribution List .......................................................Page 10
         The Baltimore Collection Field Function Office Properly
       Controlled Form 809 Receipt Books and Timely Transmitted
                      Remittances for Processing




                     Abbreviations

CFf            Collection Field function
IDRS           Integrated Data Retrieval System
IRS            Internal Revenue Service
                        The Baltimore Collection Field Function Office Properly
                      Controlled Form 809 Receipt Books and Timely Transmitted
                                     Remittances for Processing




                                             Background

The Receipt for Payment of Taxes (Form 809) is an official document for receipt of cash
payments from taxpayers. Effective controls over Form 809 issuance and processing are
important to ensure the accurate and timely deposit of taxpayer payments. Each Form 809
receipt book contains 50 receipts consisting of four parts (Part 1, Posting Voucher; Part 2,
Receipt for Payment of Taxes; Part 3, Memo Copy; and Part 4, Receipt Book Copy). When a
Form 809 is issued, Parts 1 and 3 are submitted with the payment on a Daily Report of
Collection Activity (Form 795/795A) to the appropriate Submission Processing site1 Teller Unit.
The employee provides Part 2 to the taxpayer; Part 4
remains with the Form 809 receipt book.
                                                                             Collection Field function
Each Form 809 receipt book is assigned for the                employees are required to issue
exclusive use of the intended employee, who is allowed        a Form 809 receipt when cash is
                                                                 received from a taxpayer or
to have only one assigned receipt book at a time. To           when a receipt is requested by
request the initial assignment of a Form 809 receipt                    the taxpayer.
book for an employee, the employee’s group manager
must prepare a memorandum authorizing the employee
to receive the book. Collection Field function (CFf) 2 employees are required to issue a
Form 809 receipt when cash is received from a taxpayer or when a receipt is requested by the
taxpayer for payment made by any means other than cash (i.e., check, money order, or draft).
All remittances secured by CFf employees must be transmitted to the Submission Processing site
on the day collected or as soon as possible on the next business day to meet Internal Revenue
Service (IRS) goals for timely deposit and to avoid unnecessary delays in processing. Group
managers must review all receipt books assigned to their employees at least once per year to
verify that all receipts have been accounted for properly.
This review was performed in the Small Business/Self-Employed Division CFf office in
Baltimore, Maryland, and in the Wage and Investment Division Submission Processing site in
Ogden, Utah, during the period September through December 2007. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We

1
  The Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
2
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns. Area Offices are a geographic organizational level used by the
Internal Revenue Service business units and offices to help their specific types of taxpayers understand and comply
with tax laws and issues.
                                                                                                             Page 1
                    The Baltimore Collection Field Function Office Properly
                  Controlled Form 809 Receipt Books and Timely Transmitted
                                 Remittances for Processing



believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 2
                       The Baltimore Collection Field Function Office Properly
                     Controlled Form 809 Receipt Books and Timely Transmitted
                                    Remittances for Processing




                                     Results of Review

Form 809 Receipt Books Were Properly Controlled by the Collection
Field Function Groups
We reviewed the 22 Form 809 receipt books issued to the 22 revenue officers assigned to
the 3 groups at the Baltimore CFf office. Specifically, we inventoried the receipt books that had
been issued to the revenue officers, inspected the books for issued and unissued receipts, and
reconciled the books and receipts to the inventory list maintained by the Ogden Submission
Processing site. Figure 1 shows a total of 112 receipts had been issued from the Form 809
receipt books issued to the 22 revenue officers.3 In addition, we reviewed the annual
reconciliations performed by the managers of the three CFf groups and evaluated the segregation
of duties within the groups. Overall, the Form 809 receipt books were properly controlled by the
CFf groups.
           Figure 1: Count of Form 809 Receipt Books and Issued Receipts
                                         Number of                       Number of
                                    Revenue Officers Issued              Form 809
                                   a Form 809 Receipt Book             Receipts Issued
                   Group 11                   7                              68
                   Group 13                  11                              28
                   Group 17                   4                              16
                   Totals                    22                             112
                 Source: Auditor analysis of the issued Form 809 receipt books.

Form 809 receipt books were properly issued to and maintained by the CFf
groups
The Form 809 receipt book is classified as a security item, and its use should be strictly
controlled and limited to only certain employees. Form 809 receipt books were properly issued
to and maintained by the revenue officers assigned to the three Baltimore CFf groups. For
example, the three CFf group managers had properly prepared authorization memoranda for
initial issuance of the Form 809 receipt books, and 19 (86 percent) of the 22 revenue officers
who were issued books had returned the signed acknowledgments of receipt to the Submission
Processing site Teller Unit as required. While we could not locate the remaining three

3
 One of the 112 Form 809 receipts had been voided, and no payment could be located for another receipt.
Therefore, we were able to conduct tests on 110 of the 112 receipts issued by the 22 revenue officers.
                                                                                                          Page 3
                      The Baltimore Collection Field Function Office Properly
                    Controlled Form 809 Receipt Books and Timely Transmitted
                                   Remittances for Processing



numbers of each receipt book assigned to the employee, and the receipt numbers submitted
through the end of the year from each book.
The Baltimore CFf office timely completed the annual reconciliation of Form 809 receipt books.
As part of the reconciliation, each group manager verified the numerical sequence of all
remaining Form 809 receipts in each assigned receipt book and ensured all receipts issued
subsequent to the last receipt on the list were reflected on the employee’s appropriate Form 795.
The responses prepared by the managers included the name of each employee to whom a
Form 809 book is currently assigned, the serial number of each receipt book assigned to an
employee, the numbers of the individual receipts in the book, and the numbers of the individual
receipts submitted through the closeout date noted on the memorandum.

Segregation of duties was adequately maintained for issued Form 809 receipt
books within the CFf groups
The issuance of Form 809 receipt books should be strictly limited to only certain employees due
to the nature of use and security classification of these documents. Managers should ensure only
appropriate employees are issued receipt books and the employees have research only command
codes in their Integrated Data Retrieval System (IDRS)5 profiles. Group managers adequately
maintained segregation of duties in the Baltimore CFf office by ensuring only appropriate
employees had been issued Form 809 receipt books and those employees issued receipt books
had research only command codes in their profiles. For example, clerical personnel were not
issued Form 809 books due to the inclusion of sensitive (nonresearch) command codes in their
IDRS profiles and their duties relevant to the completion of Forms 809. In addition, a review of
the IDRS profiles for each of the 22 revenue officers who had been issued Form 809 receipt
books within the 3 CFf groups showed the employees had research only command codes in their
profiles.

Remittances Were Timely Transmitted to the Submission Processing
Site for Processing
In general, any employee receiving a remittance from a taxpayer must transmit the remittance on
Form 795 via overnight, traceable mail the same day it was received or as soon as possible the
next business day, to ensure receipt in the appropriate Submission Processing site within
48 hours of receipt from the taxpayer. Because cash payments must be converted to check or
money order, 1 additional day is allowed for cash conversion. Accordingly, remittances are due
at the Submission Processing sites within 3 business days from the date the IRS received the
funds. If receipts are not received timely, the Remittance Processing Unit at the Submission

5
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records. Command codes are used by IRS employees to research and adjust taxpayer accounts
on the IDRS.
                                                                                                      Page 5
                        The Baltimore Collection Field Function Office Properly
                      Controlled Form 809 Receipt Books and Timely Transmitted
                                     Remittances for Processing



                                                                                                   Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether internal controls for collecting and depositing
remittances within the Baltimore CFf1 office were effective. Specifically, we reviewed internal
controls over the Receipt for Payment of Taxes (Form 809). To accomplish this objective, we:
I.       Determined whether employees in the Baltimore CFf office were effectively following
         the proper controls and procedures for processing remittances received and using
         Form 809 receipt books.
         A. Identified and discussed with management procedures and guidelines for processing
            remittances received, including the timely processing of remittances and use of
            Form 809 receipt books.
         B. Conducted a walkthrough of the Baltimore CFf office to determine whether controls
            for processing remittances were followed and remittances were properly safeguarded.
         C. Evaluated the timeliness of remittance processing.
             1. Performed IDRS2 research to identify posting of 110 remittances to taxpayer
                accounts.3
             2. Determined the timeliness of remittances processed and identified any delay
                trends.
         D. Performed a physical verification of assigned Form 809 receipt books to determine
            whether they were properly controlled and used.
             1. Selected and reviewed all 22 receipt books assigned to the 22 revenue officers in
                the 3 groups at the Baltimore CFf office.
             2. Determined whether the revenue officers assigned receipt books had IDRS
                adjustment capabilities.


1
  The unit in the Area Offices consisting of revenue officers who handle personal contacts with taxpayers to collect
delinquent accounts or secure unfiled returns. Area Offices are a geographic organizational level used by the IRS
business units and offices to help their specific types of taxpayers understand and comply with tax laws and issues.
2
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
3
  A total of 112 receipts had been issued from the Form 809 receipt books assigned to the revenue officers in the
Baltimore CFf office. One of the 112 Form 809 receipts had been voided, and no payment could be located for
another receipt. Therefore, we were able to conduct tests on 110 of the 112 receipts issued by the revenue officers.
                                                                                                             Page 7
                       The Baltimore Collection Field Function Office Properly
                     Controlled Form 809 Receipt Books and Timely Transmitted
                                    Remittances for Processing



             3. Secured receipt books from the revenue officers and copied all issued receipts.
             4. Determined whether the unissued receipts were still in numerical sequence and all
                four parts were intact.
             5. Determined whether any clerical personnel were issued receipt books.
             6. Obtained copies of the authorization memoranda for the initial receipt book
                issuance and the signed receipt pages for the current receipt book.
             7. Determined whether receipt books were returned to the issuing Submission
                Processing site4 if receipts had not been issued within 3 years.
             8. Identified employees who recently transferred, separated, or no longer required
                use of receipt books and determined whether the books had been returned to the
                issuing Submission Processing site.
             9. Determined whether the Baltimore CFf office timely completed the annual
                reconciliation of receipt books and compared the results with the reconciliation
                completed in Step I.D.1., to determine whether discrepancies were identified and
                properly resolved.
        E. Conducted a field visitation at the Submission Processing site in Ogden, Utah, and
           verified whether the Form 809 receipts (in the receipt books selected in Step I.D.1.)
           submitted by the revenue officers in the Baltimore CFf office had been received and
           accounted for properly.




4
 The Submission Processing sites process paper and electronic submissions, correct errors, and forward data to the
Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                           Page 8
                   The Baltimore Collection Field Function Office Properly
                 Controlled Form 809 Receipt Books and Timely Transmitted
                                Remittances for Processing



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank J. Dunleavy, Director
Van A. Warmke, Audit Manager
Mike J. Della Ripa, Lead Auditor
Erlinda K. Foye, Auditor
Frank I. Maletta, Auditor




                                                                                       Page 9
                   The Baltimore Collection Field Function Office Properly
                 Controlled Form 809 Receipt Books and Timely Transmitted
                                Remittances for Processing



                                                                            Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                    Page 10
